                                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                                        The Inspector General
                                                                        Washington, D.C. 20230


    October 25, 20 12

The Honorable Tom Coburn
United States Senate
I 72 Russell Senate Office Bldg.
Washington, DC 2051 0

    Dear Senator Coburn:

This letter responds to your requests during the July 18, 2012, hearing-Census: Planning Ahead
for 2020-before the U.S. Senate Committee on Homeland Security and Governmental Affairs,
Subcommittee on Federal Financial Management, Government Information, Federal Services,
and International Security. You specifically requested that we answer two questions: (I) What
can Congress do to help the Census Bureau make greater use of administrative records? and
(2) How can Congress ease the Census Bureau's restrictions on sharing add ress information
with state and local governments?

Data collected by federal agencies for program purposes (typically referred to as administrative
records) contain personally identifiable information that, when combined with other records,
can produce statistical information such as demographic, labor force, and socioeconomic
indicators. Administrative records have the potential to decrease data collection costs, reduce
respondent burden, and produce additional data that is not collected by questionnaires.
However, as we discussed in our initial response, accumulating person-level information from
multiple sources must be balanced against privacy and confidentiality concerns. 1 As a solution,
we suggest that Congress consider playing a role in (I) compelling other federal agencies to
provide their data to the Census Bureau and (2) easing the Bureau's restrictions on sharing
address information with state and local governments.

(I) What can Congress do to help the Census Bureau make greater use of
administrative records? Currently the Census Bureau has the legal authority to request data
from other federal agencies for statistical activities. However, those agencies are not required
to provide their administrative records to the Bureau. Below are some federal records that the
Bureau could use (those marked with an asterisk are records collected and maintained at
multiple locations, such as across states):




1
  OIG and the U.S. General Accounting Office (GAO) concur on this point; see Record Linkage and Privacy:
issues in Creating New Federal Research and Statistical Information (GA0-0 1-126SP, April 200 I).
 U.S. Department of Agriculture
       Food and Nutrition Service---------------------------------------------- Nutrition assistance program
                                                                                records*

 U.S. Department of Education 

       National Center for Education Statistics ------------------------------ School records* 


 U.S. Department of Health and Human Services

       Administration for Children and Families ----------------------------- Family assistance program 

                                                                               records*
       Centers for Medicare & Medicaid Services --------------------------- Medicaid records
       Centers for Medicare & Medicaid Services --------------------------- Medicare records
       National Center for Health Statistics---------------------------------- Birth records*
       National Center for Health Statistics---------------------------------- Death records*

 U.S. Department of Housing and Urban Development 

       Public and Indian Housing------------------------------------------------ Subsidized housing records 

       Public and Indian Housing------------------------------------------------ Public housing records 


 U.S. Department of Labor
       Employment and Training Administration ---------------------------- Unemployment insurance
                                                                           records*

 U.S. Department of Treasury
       Internal Revenue Service ------------------------------------------------- Information and tax return
                                                                                  records

 U.S. Department of Veterans Affairs ------------------------------------------ Veterans’ benefits records

 Selective Service System --------------------------------------------------------- Draft registration records

 Social Security Administration -------------------------------------------------- Social Security records

This list is not an exhaustive accounting of all potential record systems. The Census Bureau may
be aware of additional records or may discount the potential use of some of the record
systems listed above for data quality or access reasons. We have provided these examples to
illustrate the vast amount of information that is collected, but not easily accessed, for statistical
purposes.

To obtain records, the Census Bureau currently must enter into negotiations with the agency
record holder because each data set presents its own legal constraints on data access and use.
To resolve these constraints requires an often intensive, time-consuming process. For example,
last decade the Bureau’s Longitudinal Employer–Household Dynamics Program (LEHD)
requested W-2 information from the Internal Revenue Service (IRS) for its linkage to survey
records. Negotiations between the two agencies failed when IRS could not reconcile its tax
regulations with LEHD’s statistical objectives for using tax data. As a result, LEHD instead
developed a partnership with state agencies to acquire comparable data from the
unemployment insurance program. Incrementally, LEHD accumulated nationwide statistical
coverage—after a decade of negotiations—to produce estimates of local employment dynamics.
One former Bureau policy chief, in a peer-reviewed research journal, cited this example of how
privacy and confidentiality conflicts among agencies can impede the effective use of


                                                         2

administrative records as the basis for national statistical databases.2 Such barriers prevent
federal agencies from establishing an agile and robust statistical system that meets the quickly
evolving demands of policy makers, businesses, and the general public.

In addition, a number of federal laws affect data sharing, as well as the protection and use of
identifiable administrative data.3 These laws, among others, can range from encouraging the use
of administrative records to enhance statistics and reduce respondent burden to limiting use
and requiring stringent confidentiality requirements. The laws can be broad, covering all
personal information collected by all agencies, or specific to one agency or set of information,
such as Census Bureau data or IRS tax records. For example, according to Bureau officials, a
recent request for Department of Education information raised questions as to whether that
department can provide the information due to the privacy requirements mandated by the
Family Educational Rights and Privacy Act of 1974.4

To reduce this burden and enhance statistical operations, Congress could consider a legislative
requirement for federal agencies to provide unclassified information to the Census Bureau for
the sole purpose of conducting statistical operations. Providing the Bureau greater access to
administrative records, while mitigating privacy and confidentiality concerns, could result in
significant cost savings. For example, using administrative records to reduce the costs of the
decennial nonresponse operations ($1.6 billion for the 2010 Census) is worth exploring for the
2020 decennial.

(2) How can Congress ease the Census Bureau’s restrictions on sharing address
information with state and local governments? Although tribal, state, county, and local
governments share address information with the Census Bureau, Title 13 forbids the Bureau
from reciprocating with those partners—except for a few very narrow exceptions, such as the
once-a-decade address-updating program. The Census Address List Improvement Act of 1994
did amend Title 13 to provide a limited exception to these restrictions for local governments,
allowing two-way sharing of address information between the Bureau and officials designated by
local government units. However, the program has several requirements, including an appeals
process through which address-sharing disputes among the bureau and participants may be
resolved.

The 2010 decennial’s program occurred from January 2007 through March 2010; although it
may require legislative action, a more informal method of two-way sharing of address lists
earlier in the decade could improve address updating and mapping as well as the cost-
effectiveness of the Census Bureau’s demographic censuses and surveys throughout the decade.
Address and map information is already widely available on the Internet and through data
vendors. Thus, extremely restrictive statutory requirements regarding the protection and use
of addresses have become antiquated. These laws mire individual federal agencies in inefficiency
                                                            
2
  Gates, G. W. 2011. How Uncertainty About Privacy and Confidentiality Is Hampering Efforts to More Effectively
Use Administrative Records in Producing U.S. National Statistics. Journal of Privacy and Confidentiality. 3(2): 3–40.
3
  Pertinent laws include the Privacy Act of 1974, the Confidential Information Protection and Statistical Efficiency
Act of 2002, the Freedom of Information Act, Title 13 of the United States Code (i.e., the Census Act), and Title
26 of the United States Code (i.e., the Tax Code).
4
  20 U.S.C. § 1232g; 34 C.F.R. Part 99.


                                                               3

as they collect, process, and maintain nonstandardized and duplicative records. While we have
not calculated the cost agencies incur due to these constraints, it is evident that government-
wide duplication of effort is expensive. By excluding the Bureau's address list from Title 13
restrictions, Congress would allow the Bureau to collaborate much more effectively with
federal and local governments to improve these records. In addition, by continuing to
encourage the Bureau's use of administrative records, Congress would help bring further
improvements to the address list-as well as reduce the number of costly visits to housing
units that do not return the decennial questionnaire.

This discussion of enhancing the Census Bureau's use of administrative records and data sharing
supplements two responses to questions for the record that we provided following the July 18,
2012, hearing (see enclosure). Thank you for soliciting our further input on how the Bureau can
execute a 2020 decennial that reduces costs while maintaining or improving accuracy. We are
available to meet with you and your staff to discuss these issues in more detail. Please feel free
to contact me at (202) 482-4661, or Ann Eilers, Principal Assistant Inspector General for Audit
and Evaluation, at (202) 482-2754, for any further assistance.

Sincerely,


 ~0·3~
Todd J. Zinser

Enclosure

cc: The Honorable Thomas R. Carper, Chairman
    The Honorable Scott Brown




                                                4
                                                Enclosure


                             Post-H earing Questions for the Record
                    Submitted to th e Commerce Inspector Gener·al Todd Zinser
                                       from Dr. T om Coburn
                               " Census: Planning Ahead for 2020"
                                           July 20, 2012


l. I n you r testimony, you discussed how the Census Bureau could improve its effkiency
   and accomplish its mission better if it had access to other federa l agencies' data and
   information abou t citizens. Can yo u please describe what type of information sharing
   between agencies currently exists and what is needed? Please describe any legislative or
   regulatory ch anges that woulcl n eed to be made to allow the Cen sus Bureau to access
   other agencies ' data and information.

    Infor m ation Sharing Betw een Agen cies and t he Census Bureau

    C ongress has authorized the Department of Commerce and, ultimately, the Census Bureau
    t o acquire and use information available from any sources by purchase or otherwis-from
    states, counties, cities, or other units of government, or their in strum entalities, or from
    private persons and agencies- for the conduct of statistical activiti es instead of direct
    inqu iries.1 Congress has provided add itional legislative support for these activit ies with the
    Bureau's specific exemption in the Privacy Act of 1974 (as am ended).2 The Bureau actively
    uses these authorit ies t o collect information and minim ize respondent burden.

    The Census Bur eau r eceives billions of records each year from a variety of other federal
    agencies to conduct its own demograph ic and economic statistical programs, as well as
    stati stical activities it conducts for other federal agencies,3 through the Statistical
    Administrative Records System (StARS). The Bureau began building this syst em in the mid-
    1990s. and agencies cu rrently providing data for t his system of records include the
    Departments of Agricu ltu re, Education, Health and Human Services, Homeland Security,
    Housing and Urban Development, Labor, T reasury, and Veterans Affair s, as well as the
    Office of Personnel Management , d1e Social Security Administrat ion, the Select ive Service
    Syst em. and the U.S. Po stal Service.• In addition, StARS in cludes data from state
    governments and private entit ies.

    Most federal agencies, st ate governments, and private organizations collect and maint ain
    basic information on the individuals and businesses they serve. Their records typically
    include the type of contact information (e .g., names. addresses, and t elephone numbers)
    t hat could be used to improve the efficiency and effectiveness of stat istical programs such as
    the decennial census. In addition, organizations maintain a wide array of other infor mation
    t hat they have individually determined to support their mission . The types of information

I 13 U.S.C. § 6.

'5 U.S.C. § 552a(b)(4).
1
  Censu.ses, survey<, and other statistical studies as authorized by 13 U.S.C. §§ I - 402 and 15 U.S.C. § I 525.
• As defined in its Privacy Act System of Records notice COMMERCEJCENSU~. Statistical Administrative Records
System (74 FR 12834-02).




                                                         5

    vary by sou rce agency and program within those agencies. Therefore, t he records t he
    Bureau maintains in StARS may contain t he fo llow ing types of info rmat ion:

        •    Demographic information such as date of birth, sex, race, et hnicity, household and
             family cha racteristics, education, marital status, t ribal affiliat ion , and military vetera n
             s tatus;

        •    Geographical and respondent contaa information such as name, addr ess, telephone
             num ber, and geograph ic codes;

        •    Morrality information such as cause of deat h and hospitalization info rmation;

        •    Health information such as type of provider, services provided, cost of services, and
             quality indicators;

        •    Economic information such as housing cha racteristics, income, occupat ion,
             employment and unem ployment informat ion , healt h insurance coverage, federal
             program part icipat ion, assets, and wealth; and

        •    Business information such as business name, r evenues, nu mber of employees, and
             indust ry codes.

    Data Use Constraints

    The Census Bur eau's receipt of informat ion from su pplying agencies has requ ir ed years of
    negot iat ions. Each data-providing agency, guided by its own statu tes and policies regarding
    acceptable disclosure and use, places constraints on the informat ion it supplies. When the
    Bureau uses records from mu lt iple agencies to conduct a specific o peration, t he interplay
    between these legal constraints can be quit e complex and limit ing. As a r esult , the Bu reau
    has only used administrat ive r ecords in a limit ed fashion in prior decenn ial census
    o perations. In some cases any presentation of data t hat describes t he source of t he record
    wou ld violat e a confident iality provision. T he merger of info rmat ion from mu lt iple data
    sources, such as the Int ernal Revenue Service and the Bur eau, while removing infor mat ion
    t hat describes a specific record's source, protects confident iality. According to the Bu reau,
    in a recent request for info rmation from the Depart ment of Education, t here is a question
    as t o whether that depa rtment can even provide infor mat ion to the Census Bureau due to
    t he privacy requirements mandated by the Fam ily Educational Rights and Privacy Act.s

    The Census Bur eau has its own const raints on the return of infor mat ion to other federal
    agencies. Agency informat ion that it merges w ith data collect ed under the authority of T itle
     13 cannot be returned to that agency in an identifiable form , even if that entity is another
    federal stat ist ical agency.6 Legal exceptions have been requ ir ed t o aut horize t he sharing of
    info rmat ion fo r statist ical purposes. One exception was pe rmitt ed w ith the Census Address


' 20 U.S.C § 1232g; 34 C.F.R. Part 99.
' 13 u.s.c § 9.


                                                      2




                                                      6

    List Improvement Act of 1994,1 which allowed the Bureau to share address infor mat ion
    wid1 local government entit ies for t he conduct of the decennial census and other statistical
    activities, provided they signed a confidentiality agre ement.

    Another important example of a Congressional mandate to share data is the C onfidential
    Information Protection and Statistical Efficiency Act of 2002.8 This Act provided a baseline
    of confidentiality protections for statistical information in Subtitle A; it also authorized the
    Census Bureau, the Bureau of Economic Analysis. and the Bureau of Labor Statistics to
    share bus iness data for the efficient and cons istent representation of bu sin esses and the
    national economy in Su btitle B. Much of the bus iness data held by the Census Bureau comes
    from t he Internal Revenue Service, and the Bureau adds value through processing. coding,
    and merger with its own economic data collections.

    All agencies operate under confidentiality and data sharing constraints that have been
    developed and promulgated after more than a century of federal laws and Supreme Court
    decisions. The United States has grappled with the often contradictory priorities of the
    government's need for information, to effectively and efficiently provide appro priate
    repr esentation and services to its populace, and an individual's right to privacy and
    protection from harm. The conduct of a census or a statistical su rvey, by its very nature,
    places bu rden on respondents and impacts the ir privacy. However. this need for statistics
    versus t he bu rden placed on respondents is balanced by legislat ive controls such as the
    Paperwor k Reduction Act.

    Considerations that Could Im prove the Census Bureau's Efficient Production of
    Information

    Agencies are only custod ians of personal and bus iness information t hat is owned by the
    people of t he United States, and the use of that infor mation is directed by Congress . The
    federal statistical system uses those records to cr eate important econom ic indicat or s, as
    well as demographic and socio-econom ic statistics. t o help inform the apportionment of
    representation, determine policy, and direct r esources. In addition, these statistics inform
    t he populace and provide businesses with the informat ion they need to make sound
    decisions t hat eventually fuel ou r economy. Given the staggering cost growth experienced
    over prior decennials, the Census Bureau needs a new met hod of conducti ng the decenn ial
    census to reduce costs while maintaining or improving accuracy.

    It is in t he government 's interest to foster a tl1riving statistical system even in a constrained
    budget environment, and the Census Bureau is a key component of our national statistica l
    system. The government"s ability to enhance t he use, o r reuse. of information that people
    and businesses have already provided re duces the burden placed on t hem to respond to
    questionnair es and r educes intr usion of their privacy. Agencies have already incurred the
    cost of collecting and processing the information they house. Reusing existing data
    minimizes the cost incurred by the government to collect data for statistical act ivities.


7
  P.L 103430.
• P.L I07-347, Title V.


                                                   3




                                                   7

    We are not recommending t hat the Census Bureau conduct a cost-effect ive decennial
    cen sus so lely through the use of existing data. It is importan t that individuals have the
    capacity to inform the government where they live and provide the basic charact eristics
    required for a funct ion ing repr esentative democracy. However. if individua ls are not directly
    co ntact ed in the decennial census process, or they do not to provide their information, they
    can still be enumerated through information t he governmen t alr eady holds.9 In add it ion,
    exist ing information can help the Bur eau develop more cost-effective and efficient census
    and survey data collect ions. There are potent ial ways to improve the stat ist ical syst em. and
    reduce costs, while minimizing the impact on individual pr ivacy:

      I. Congress should consider whether address information could be shared more freely and
         continuously among agencies, including state and local governments, for the purpose of
         statistical operations. Address and map information is w ide ly available on the int ernet
         and t hrough data vendor s. T hese data alo ne do not impact the privacy of individuals.
         However. t he co nfidentiality constraints under which t he Census Bureau operates do
         not allow the sharing of this type of informat ion wit h ot her agencies and leads to
         inefficient and perhaps ineffective government-wide operat ions. This new approach
         might require legislat ion and t he further development and promulgation of address
         and mapping standards.

      2. Congress should consider a legislative requirement for federal agencies ro provide unclassified
         information to the Bureau for the sole purpose of producing relevan~ high-quality statistics.
         Even though the Census Bureau has the legal aut hority to r equest data from other
         federal agencies for statist ical activities, those agencies are not r equired to provide the
         infor mat ion to d1e Bureau. Furt herm ore, when agencies do provide information, it
         comes with legal const raints on data access and use and often requires labo r intensive
         negot iat ions. New legislation requiring fede ral agencies t o provide t he Bureau their
         infor mat ion cou ld reduce this burden and enhance statistical operat ions- including.
         but not limited t o, the decennial census and t he long-form replacement American
         C ommun ity Survey.

      3. Congress should consider legis/arion that transfers the custodial requirements from the source
         agency to the Census Bureau when that agency provides its information. Agencies are very
         diligent about data confidentiality and appropriat e use of info rmat ion t hey co llect,
         maintain, and eventually provide to t he C ensus Bureau. Serving as custodians of t he
         public int erest and nat iona l recor ds, t hese agencies continue to encount er the burden
         of oversee ing and reporting on the Bureau's use of the data they have provided. This
         burden r emains w it h agencies, despite the fact that the Bureau's confidentiality
         protect ions are more restrictive t han the prot ections applicable t o most federal
         unclassified information. New legislat ion wou ld help eliminat e t his burden.




'As provided by 13 U.S.C § 6.


                                                   4




                                                   8

2. D o you th ink that the Cen sus Bu reau's strategy for mapping is efficient? Cou ld the
   Census Bu reau improve its efficiency by using commercially available m aps? Please
   proYide any rec.o mmendation s for how th e Census Bur eau could improve its mapping
   strategies.

   OIG has not specifically conduct ed an analysis of t he C ens us Bureau's st rat egy fo r the
   acquisit ion and use of commercially availa ble pro duct s either to re place o r improve its own
   maps. Ou r evaluation effo rt s have focused on addresses, the critical means fo r locat ing and
   enumerat ing t he popu lat ion in t he decenn ial census . As r equired by Congressional
   appo rt ionment and r ed istrict ing, t he Bureau maps link each add ress and o ther living quarter
   ident ifiers to a specific spot on a map through a process called geocoding. These add resses
   an d map also provide tallies fo r political and statistical geograph ic entities.

   In May 2012, we released our evaluat ion of t he impact that various add ress-updating
   o perations (includ ing U.S. Postal Service address updates) have on the Census Bur eau's
   combin ed master add ress file (MAF) and topo logically in tegrat ed geogra phic encod ing and
   referencing (TIGER) map database (combined, the MAF- TIG ER database, o r MT db). In t his
   re po rt , we identified t rends t hat int ro duced er ro r in its product ion process .10 In add ition,
   we reviewed the process by which Bur eau field staff an d local government s provided
   address, ma p, and boun dary updates in the 20 I0 decenn ial.

   We found t hat the Census Bur eau's effort s t o assess MT db quality were unsuccessful in
   20 I 0. In add it ion, the Bureau d id not realize its goal of updat ing addr ess and map
   info rmat ion from t ri bal, state, county, an d local government partn ers. It must meet bo th of
   t hese goals to implement a 2020 decennial add ress-canvassing operation with reduced
   costs. Fu rthermore, as of June 20 II , the MAF contained 3.5 million ungeocoded reco rds- a
   number likely to rise, as it d id d uring t he 20 10 decennial. Withou t maintenance of the MTd b
   by continuous geocod ing th roughout t he decade, the Bur eau will again have to re ly on an
   expensive end -of-decade add ress-canvassing operat ion . Finally, t he MAF updating process of
   accept ing more recent address changes withou t adequate verification may resu lt in a lower-
   quality add ress list.

   W e recommen ded that t he C ensus Bu reau:

   I. Develop an MT db measure fo r determining add ress list quality at a low level of
      geography t hat (a) provides a fair and equal o ppo rt unity for ta rgeting selection, (b)
      d rives selection and planning decisions, and (c) is well-documented and verifiable.

   2. Wor k wit h t he Department t o det ermine the feasibility of improving methods of sha ring
      MT db info rmation t hroughout the decade with governmental entit ies (partner s) to
      cr eat e a unifo r m, national address list.

   10 See U.S. Department of Commerce Office of Inspect o r Gene ral, May 20 12. Hi~Qpality Maps and Accurate

   Addresses Are Needed to Achieve Census 2020 Cost-Soving Goals, OIG- 12-1!24-1. Washington, DC: Department o f
   Commerce OIG.




                                                       5




                                                      9

       3. Investigate and remedy the exclusion of 500,000 ungeocoded address reco rds, which
           had been designated as valid U.S. Postal Service delivery addresses, from the 20 I 0
           decenn ial.

       4. Conduct the necessary r esea rch , develop a proven methodology, and allocate the
          necessary funds to continuously reduce the number of ungeocoded records tl1roughout
          the decade.

       5. Develop and implement quality indicator t ools, including use of adm inist rative records, 11
          to ensure t hat updates to the MAF are accurate.

       Congress shou ld cont inue to encourage the use of administrative records t o im prove the
       address list and reduce t he number of visits to housing units that do not retum the
       questionnaire. Although tribal. stat e, county. and local govemments share address
       information with the Census Bureau. Title 13 forbids the Bureau from reciprocating with
       those partners- except for a few very nar row exceptions, such as the once-a-decade
       address-updating program . The Census Address List Improvement Act of 1994 did amend
       Title 13 t o provide a limited exception to t hese restriction s for local governments , allowing
       two-way sharing of address infor mation between the Bureau and officials designated by local
       government units. However, the program has several requirements, including an invitation
       and review phase, as well as an appeals process . The 20 I0 decenn ial's program occurred
       from Janu ary 2007 through March 20 I0. Although it may require legislat ive action, a more
       informal metl10d of two-way sha ring of address lists earlier in d1e decade could improve
       address updat ing and geocoding as well as t he cost-effectiveness of t he Bureau's
       demographic censuses and surveys throughout t he decade.




11   The Census Bureau receives administrative records from a variety of source s. Bureau use of these records in
the address updating and verification process could substantially reduce t he size and scope of expensive field
operatio ns in the 2020 decennial. See the first consideration, at the e nd of o ur first response, for a more detailed
discussion of the potential legislative issues inherent in the se use s of administrative records.



                                                           6




                                                          10

